<html>
<title> - HEARING ON THE NOMINATIONS OF MARY BRIDGET NEUMAYR TO BE A MEMBER OF THE COUNCIL ON ENVIRONMENTAL QUALITY AND JOHN C. FLEMING TO BE ASSISTANT SECRETARY OF COMMERCE FOR ECONOMIC DEVELOPMENT</title>
<body><pre>[Senate Hearing 115-330]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-330

 HEARING ON THE NOMINATIONS OF MARY BRIDGET NEUMAYR TO BE A MEMBER OF 
    THE COUNCIL ON ENVIRONMENTAL QUALITY AND JOHN C. FLEMING TO BE 
        ASSISTANT SECRETARY OF COMMERCE FOR ECONOMIC DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 19, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


        Available via the World Wide Web: http://www.govinfo.gov
               
               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-547PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e293e210e2d3b3d3a262b223e602d212360">[email&#160;protected]</a>              
               
               
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 19, 2018
                           OPENING STATEMENTS

Upton, Hon. Fred, U.S. Representative Senator from the State of 
  Michigan.......................................................     1
Cassidy, Hon. Bill, U.S. Senator from the State of Louisiana.....     3
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     3
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     5

                               WITNESSES

Neumayr, Mary Bridget, Nominated to be a Member of the Council on 
  Environmental Quality..........................................     7
    Prepared statement...........................................    10

    Responses to additional questions from:
        Senator Barrasso.........................................    12
        Senator Carper...........................................    15
        Senator Capito...........................................    33
        Senator Duckworth........................................    34
        Senator Markey...........................................    36
        Senator Merkley..........................................    38
        Senator Whitehouse.......................................    40
Fleming, John C., Nominated to be Assistant Secretary of Commerce 
  for Economic Development, Department of Commerce...............    45
    Prepared statement...........................................    47

    Responses to additional questions from:
        Senator Barrasso.........................................    49
        Senator Carper...........................................    50
        Senator Gillibrand.......................................    52
        Senator Whitehouse.......................................    56

                          ADDITIONAL MATERIAL

Letters of Responce in Support of Nominations....................    84

 
 HEARING ON THE NOMINATIONS OF MARY BRIDGET NEUMAYR TO BE A MEMBER OF 
    THE COUNCIL ON ENVIRONMENTAL QUALITY AND JOHN C. FLEMING TO BE 
        ASSISTANT SECRETARY OF COMMERCE FOR ECONOMIC DEVELOPMENT

                              ----------                              


                        THURSDAY, JULY 19, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Building, Hon. John Barrasso (chairman 
of the committee) presiding.
    Present: Senators Barrasso, Inhofe, Capito, Boozman, 
Wicker, Fischer, Rounds, Ernst, Sullivan, Carper, Cardin, 
Whitehouse, Gillibrand, Booker, Markey, and Van Hollen.
    Senator Barrasso. Before we begin today's hearing, I want 
to announce that the Acting EPA Administrator, Andrew Wheeler, 
will come to testify before this committee on August 1. When I 
spoke with Acting Administrator Wheeler, he told me our 
committee was first on his list so I am very pleased, Ranking 
Member, to inform you and everyone here that we will be hearing 
from him very soon.
    Senator Carper. I am Tom Carper and I approve this message.
    Senator Barrasso. The hearing on August 1 will be an 
opportunity to learn about the work being done by the agency to 
protect America's environment and allow our Nation's economy to 
grow.
    I call this hearing to order.
    I know the House is going to be voting in the next few 
minutes, so we will go a little bit out of order. I am going to 
call on Representative Upton to make an introduction and then I 
will give my opening statement after that. I will go to Senator 
Cassidy as well because I know he has additional 
responsibilities.

             OPENING STATEMENT OF HON. FRED UPTON, 
         U.S. REPRESENTATIVE FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    I really appreciate that. We are going to have votes 
shortly.
    I see my tennis partner, Senator Capito, and I always give 
her a little jab when we are playing. I say where is my phone 
book? I always thought you had a phone book over here in the 
Senate.
    I am delighted to be here. I am here on a special mission, 
one I know both sides of the aisle will appreciate.
    I have the distinct honor and great pleasure to introduce a 
really wonderful and distinguished individual, Mary Neumayr, 
who is sitting right behind me, for consideration of her 
nomination for the Council on Environmental Quality.
    I met her back in 2009 just after she joined the Minority 
staff of the Energy and Commerce Committee. I later, of course, 
chaired that committee. At the time, I was working with Ed 
Markey on what became known as the American Isotopes Protection 
Act, which we both co-sponsored and lead.
    She worked across the aisle with the Majority counterpart, 
Jeff Baran, now a commissioner of the NRC, to help us 
successfully move the bill through the committee. We passed it 
on the House floor 400-17 and it became law 2 years later.
    Mary's thoughtful advice helped us write a law that 
navigated the challenging issues of non-proliferation and 
public health, ensuring the effective and economical delivery 
of medical imaging services upon which we know tens of 
thousands of folks rely daily here in the U.S.
    Her grasp of the legal and public health issues and her 
appreciation of the driving need to prioritize the interests of 
people who ultimately would benefit from the law demonstrated 
the qualities that served the committee well throughout my 6 
years as Chair and I know will serve the Country well should 
she be confirmed.
    Her exemplary service as a committee counsel, her humble 
and perceptive demeanor, and her sharp mind certainly reflect 
the experience of a 20-year legal and government career. The 
roots of her qualities reflect her loving and vibrant family, 
which is why this room is so full, and her faith and thoughtful 
education.
    A native of California, she was raised in a family that 
loved learning, activity outdoors, sports and most importantly, 
service to others.
    After college and law school in California, she practiced 
for many years at prestigious firms in New York and San 
Francisco before joining the Department of Justice in 2003.
    CEQ performs a critical mission for ensuring the protection 
of the environment and the pursuit of various policies for the 
American public. From the testimony of her friends and 
coworkers over these years, and from my own experience, I know 
she has demonstrated that she is more than well qualified to 
serve in the role as Chair of the CEQ.
    She has not only proven her abilities as the Chief of Staff 
and effectively the highest ranking official at CEQ over the 
last year, she has also proven her qualifications and 
dedication in public service throughout her several posts in 
government.
    Both Chairman Walden and I have urged you to take into 
account our direct knowledge of her capabilities as I am 
positive other members who know her on both sides of the aisle 
share our view given their experience and with her 8 years as 
Senior Counsel and then Deputy Chief Counsel for Energy and 
Environment on the Energy and Commerce Committee.
    We all benefited from her knowledge. It ought to be a slam 
dunk.
    I yield back the balance of my time. Thank you for your 
time today.
    Senator Barrasso. Thank you, Representative Upton. We 
appreciate your taking time to join us. I know you have to get 
back to the House so you are excused. We appreciate having you 
here.
    Mr. Upton. Thank you.
    Senator Barrasso. Senator Cassidy, if it is convenient for 
you, I would like to invite you to use this time to introduce 
Dr. Fleming.

            OPENING STATEMENT OF HON. BILL CASSIDY, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Cassidy. Thank you for your consideration.
    Chairman Barrasso, Ranking Member Carper, and members of 
the committee, I thank you for the opportunity to introduce my 
friend and our former congressional colleague, John Fleming.
    John has been nominated by the President to serve as the 
Assistant Secretary of Commerce for Economic Development at the 
Department of Commerce. John, congratulations. I also recognize 
your wife, Cindy, who is a wonderful person.
    To my Senate colleagues, know that John has dedicated his 
life to service. After completing under graduate and medical 
studies at the University of Mississippi, John enlisted in the 
Navy joining the Medical Corps.
    Following military service, John served others as a family 
practitioner in Minden, Louisiana. He is also a small business 
owner. He employs over 500 fellow Americans in his various 
small businesses.
    In 2008, John was elected to represent Louisiana's Fourth 
congressional District, serving four terms. While in Congress, 
John worked to diversify north and central Louisiana's economy 
and work force toward a technology-driven, knowledge-based 
economy.
    He coordinated cooperative efforts across government, 
industry and educational institutions resulting in development 
of the National Cyber Research Park, home to high tech 
professionals employed by cyber-related companies, government 
and institutions of higher education.
    He helped develop a comprehensive K-12 cyber curriculum 
focused on growing the next generation work force which now 
benefits nearly 3 million students across the United States. He 
has also helped veterans re-enter civilian life by working to 
create opportunities to develop skills in various cyber-related 
career fields.
    Since leaving Congress, John has served as the Deputy 
Assistant Secretary of Health IT Reform at the Department of 
Health and Human Services. He has now been asked to serve in a 
new capacity at the Commerce Department.
    His accomplishments combined with his background as a 
policymaker, business leader, and member of the military make 
him an excellent choice to help lead the Administration's 
economic development efforts. I am proud to support him and 
thank the committee for the opportunity to introduce my fellow 
Louisianan.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you so much, Senator Cassidy. I 
know you have another commitment at this time, so you are 
excused. I appreciate your being here to share your wonderful 
thoughts and recommendations for Dr. Fleming.
    Today, we will consider the nominations of Mary Bridget 
Neumayr to be a member of the Council on Environmental Quality, 
or the CEQ, and John C. Fleming to be Assistant Secretary of 
Commerce for Economic Development.
    Both nominees are well qualified and will bring a wealth of 
experience and expertise to these critical roles. I applaud 
President Trump's nomination of these accomplished and devoted 
public servants.
    The President has nominated Mary Neumayr to be a member of 
the Council on Environmental Quality. Upon Senate confirmation, 
President Trump intends to designate her as chairman of the 
Council.
    Congress established CEQ under the National Environmental 
Policy Act, or NEPA. It is part of the Executive Office of the 
President. The Council is responsible for overseeing Federal 
agencies which implement NEPA. CEQ also develops and recommends 
environmental policies to the President.
    Ms. Neumayr is uniquely qualified to serve as Chairman of 
the CEQ. She currently serves as the Council's Chief of Staff 
and has already demonstrated leadership in this capacity. She 
has an extensive background in environmental law.
    She previously served as Deputy Chief Counsel of Energy and 
Environment on the House Energy and Commerce Committee. She has 
also served as the Deputy General Counsel for Environment and 
Nuclear Programs at the Department of Energy. She served as 
Counsel to the Assistant Attorney General for the Environment 
and Natural Resources Division at the Department of Justice. 
Prior to her government service, Ms. Neumayr practiced law in 
the private sector for 14 years.
    Earlier this month, a bipartisan group of eight former 
General Counsels at the Department of Energy and Assistant 
Attorneys General at the Department of Justice wrote a letter 
praising Ms. Neumayr's nomination. This group includes three 
members of the Obama administration and one member of the 
Clinton administration. Their bipartisan letter states that, 
``Mary Neumayr is highly qualified to serve as CEQ's Chair. 
Through her service on Capitol Hill, at the U.S. Department of 
Energy, the U.S. Department of Justice, and most recently as 
Chief of Staff at CEQ, she has developed and has exhibited the 
knowledge and skills to be a highly successful CEQ Chairman.
    Moreover, and equally as important, she treats all people 
and all stakeholders with dignity and respect, and her 
integrity is absolutely above reproach.''
    President Trump has also nominated Dr. John Fleming to be 
Assistant Secretary of Commerce for Economic Development. The 
Assistant Secretary serves as the Administrator of the Economic 
Development Administration, the EDA.
    EDA provides development assistance to economically 
distressed portions of the Country. Dr. Fleming is well 
qualified for this role. Not only is he a former Member of 
Congress, a military veteran, and a physician, he is also a 
successful businessman and entrepreneur.
    In this capacity, Dr. Fleming has helped launch several 
companies which today employ over 500 people in Louisiana.
    Dr. Fleming's nomination has drawn praise from Don Pierson, 
Secretary of Louisiana Economic Development, who states, ``Dr. 
Fleming has been instrumental in the development and execution 
of projects, which have taken root in northwest Louisiana and 
spread across the United States.
    ``Dr. Fleming recognized our regional economy was too 
heavily reliant on oil and gas, agriculture and gaming. As a 
result, Dr. Fleming set a path toward pivoting our economy and 
associated work force to a technology-driven, knowledge-based 
economy.
    ``His experience in public policy, business and his 
military background serve as the right attributes for leading 
economic development efforts.''
    I look forward to hearing from both Ms. Neumayr and Dr. 
Fleming as the committee considers their nominations.
    I will now turn to Ranking Member Carper for his statement.

             OPENING STATEMENT OF HON. TOM CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    Good morning, one and all. Welcome to our nominees, your 
friends and families. I hope when you address us you will 
introduce not all of them, there are a lot of them here, but at 
least some of them. If you do, that will be great.
    We have two nominees before us who have been nominated to 
serve in what I believe, and I think I speak for most of us 
here, are two very important roles.
    I want to say to Mary Neumayr, thank you for spending some 
time with my staff and me this month. You have been nominated 
to lead the Council on Environmental Quality which we lovingly 
call CEQ.
    CEQ has a vital role in coordinating the efforts of a 
number of Federal agencies on cross-cutting and important 
environmental issues. I mentioned this to my colleagues before 
and I mentioned it to you, Ms. Neumayr.
    Russell Peterson, who had been a top leader in the DuPont 
Company, a top leader who later became Governor of Delaware, 
later became head of CEQ under Presidents Nixon and Ford 
Administrations, later became one of my mentors when I moved to 
government at the tender age of 26 coming out of the Navy.
    He sort of took me under his wing, a Republican Governor, 
former Governor and a young Democrat. I will always be grateful 
to him. I called him Governor, and I once said to him, 
Governor, tell me what the CEQ is all about.
    He said some people talk about it almost like an offensive 
coordinator like on a football team to try to get people on the 
offense to work together to see who can score some touchdowns. 
He said, I think of it more as an orchestra leader. You don't 
play the instruments but you actually direct and try to get 
everyone to work in harmony together.
    I think that is a pretty good analogy. We need some harmony 
here in this place. Maybe you can help with some of that.
    In the last Administration, CEQ led Federal efforts to 
strengthen our resilience to extreme weather, reduce our 
emissions of climate change inducing gases, and reform our 
broken chemical safety laws. The CEQ Chair also plays a 
critical role in protecting the environment through 
implementation of the National Environmental Policy Act, or 
NEPA, which helps Federal agencies make good decisions for our 
Nation.
    Under Ms. Neumayr's acting leadership for the last year or 
so, CEQ has signaled an intent to make significant revisions to 
the way NEPA operates. While we should always look for 
opportunities to improve processes, I like to say if it is not 
perfect make it better, but we must also be careful not to 
throw the baby out with the bathwater by undermining critical 
protections for our communities, the environment and our 
health.
    The nominee to carry on this important work at CEQ must be 
someone who can build alliances, work with Congress, and 
determine a path forward that strengthens our economy, while 
protecting our health and environment.
    As I told Ms. Neumayr when we met in my office earlier this 
month, I am always looking for commonsense solutions that are 
good for our environment and our economy. I love win-win 
situations. I think we have a bunch of them here that I will 
talk a little about but a bunch of them we can actually talk 
about, we can actually deliver on.
    A good example of a commonsense solution is fuel economy 
and greenhouse gas tailpipe standards for cars and SUVs. The 
Department of Transportation and the Environmental Protection 
Administration have the opportunity to create one of those 
``win-win'' situations where automakers and California, and for 
a lot of States, could both support a deal that provides some 
near-term flexibility for the auto industry in exchange for 
longer-term standards, more rigorous fuel efficiency standards 
beyond 2025, while helping California, and States around the 
Country, meet their climate goals.
    However, a draft of these rules obtained by my office 
earlier this year shows that the Trump Administration is 
looking to, in some ways, snatch defeat from the jaws of 
victory instead of working in an appropriate way to achieve 
consensus. CEQ can and should help to coordinate a true effort 
to govern on an environmental issue that does not need to be a 
polarizing one.
    Another example of a commonsense solution is adopting the 
recent changes to the Montreal Protocol that phase down HFCs, 
hydrofluorocarbons, a substance used to help cool our homes, 
our vehicles, and our food. Supporting the phase-down of HFCs 
allows U.S. companies to capture a large portion of the 
projected $1 trillion global market, which is out there and a 
prize to be seized, which is expected to create some 33,000 
jobs in this Country in less than a decade.
    The phase down is also a critical action to address the 
effects of climate change. It is a win-win. U.S. business 
leaders have told me that if we walk away from this policy now, 
we will cede our global leadership to countries like China. 
There is a clear win-win opportunity for businesses and the 
environment in this instance. This Administration just needs to 
act and CEQ can help make that happen. Seize the day, carpe 
diem. In Delaware, we say Carper diem but here it is carpe 
diem. They are the only two words of Latin I know.
    Our other witness this morning, John Fleming, joined by 
Cindy, has been nominated to serve as Assistant Secretary for 
the Economic Development Administration at the Department of 
Commerce. From one Navy guy to another, welcome.
    As many of our colleagues on this committee know, EDA 
provides critical infrastructure and economic assistance 
funding to communities across America. However, the Trump 
Administration has sought to eliminate EDA and similar economic 
development programs.
    In addition, the nominee himself has voted twice, and we 
will talk about this later, as a Member of Congress to 
eliminate funding for EDA. That requires some further 
discussion. I am sure we will have that here today.
    I hope that our nominee can shed some light on those 
previous votes and what those positions mean today looking to 
the future. Further, I hope that he has changed his position on 
those votes and, if confirmed, will protect and advocate for 
EDA programs and funding that provide much needed assistance to 
many communities throughout the United States.
    My home State of Delaware, not unlike the other States 
represented here, has been a real beneficiary of some of the 
EDA funding. We want to make sure we continue to have that kind 
of cooperation. It has been a great partnership and we value 
that.
    Thanks very much, Mr. Chairman. Thanks to our nominees and 
to your friends and families who are here. I look forward to 
the hearing.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    I would now invite the nominees to please come to the table 
for testimony. We have both Mary Neumayr, nominated to be a 
member of the Council on Environmental Quality and John 
Fleming, nominated to be Assistant Secretary of Commerce for 
Economic Development.
    I would like to remind each of you that your full written 
testimony will be made a part of the record. I would ask that 
you try to keep your comments to 5 minutes so that we will have 
more time for questioning.
    We will start with Ms. Neumayr. I would invite you to first 
introduce any members of your family and then proceed with your 
testimony.

STATEMENT OF MARY BRIDGET NEUMAYR, NOMINATED TO BE A MEMBER OF 
              THE COUNCIL ON ENVIRONMENTAL QUALITY

    Ms. Neumayr. Thank you, Chairman Barrasso.
    I would like to introduce two members of my family. My 
youngest sister, Ann Braden, is here visiting from Greensboro, 
North Carolina. My two nieces, Evelyn and Madeline, are here. 
Evelyn is almost eight and Madeline is almost five. This is 
their first visit to the Senate.
    Senator Barrasso. Is that Madeline behind you with the red 
bow in her hair? Evelyn has a red bow in her hair too. They are 
looking very sharp. Welcome. We are glad you are here.
    Senator Carper. Who is your favorite aunt?
    Ms. Neumayr. That is a tough question. They have a few of 
them.
    Senator Barrasso. Please proceed at your convenience.
    Ms. Neumayr. Chairman Barrasso, Ranking Member Carper, and 
members of the committee, thank you for the opportunity to 
appear before you today as the nominee for the position of 
member, and if confirmed, Chairman of the Council on 
Environmental Quality. I am honored that the President has 
nominated me for this position.
    I want to thank Chairman Upton for his kind introduction. I 
also want to thank my parents, family, friends and current and 
former colleagues, for all of their support. Finally, I want to 
thank all of the members of this committee and their staff who 
took the time to meet with me prior to this hearing.
    By way of background, I am a native of California, was born 
in the San Francisco Bay Area and grew up in the suburbs of Los 
Angeles. I am the oldest of seven children, and growing up 
spent most of my free time outdoors, including playing tennis, 
swimming and other activities.
    What I looked forward to the most, however, were family 
road trips during the summers. On these trips, we visited 
nearly every State and saw many of our Nation's most 
spectacular national parks, rivers, mountain ranges, and 
coastlines. These trips gave me a deep appreciation of the 
great beauty and diversity of our Country.
    I am extremely grateful to be considered for this position. 
Over the past 15 years, I have had the privilege of working in 
a variety of roles in the Executive and Legislative branches on 
matters involving energy and environmental law and policy. In 
those roles, I have had the opportunity to collaborate and work 
closely with dedicated career officials from numerous Federal 
agencies and departments, as well as with members and 
congressional staff on both sides of the aisle.
    Since March 2017, I have served as the Chief of Staff of 
CEQ. In this role, I have had the pleasure of working with the 
agency's approximately 30 lawyers, professional staff and 
detailees.
    In my current position, I supervise CEQ's operations and 
activities, including its core responsibility of overseeing the 
implementation of the National Environmental Policy Act by 
Federal agencies. I also supervise the Office of Federal 
Sustainability which supports energy and environmental 
performance across the Federal Government.
    The National Environmental Policy Act, which established 
CEQ in 1970, was the first major environmental law in the 
United States, and is often called the Magna Carta of Federal 
environmental laws. The Act states that it is the policy of the 
Federal Government to create and maintain the conditions under 
which man and nature can exist in ``productive harmony'' for 
the benefit of present and future generations of Americans.
    If confirmed, I commit to working every day to advance this 
policy for communities across the Country and to promote 
effective environmental protection.
    Under the leadership of President Trump, we have a unique 
opportunity to improve the governmentwide implementation of 
NEPA, and to make government processes and decisionmaking under 
this and related statutes more timely, efficient and effective 
for the American people.
    I believe that timely and efficient processes for 
environmental reviews and related permitting decisions under 
NEPA are critical to growing our economy, creating jobs and 
achieving environmental protection. This includes projects to 
modernize our Nation's infrastructure as well as environmental 
restoration and other environmentally beneficial projects.
    If confirmed, my highest priority will be to advance the 
practical, efficient and effective implementation of NEPA, as 
well as our Nation's other environmental laws, and to promote 
environmental protection consistent with congressional 
directives. To this end, last August President Trump issued 
Executive Order 13807 which directs Federal agencies to conduct 
more timely, coordinated and efficient environmental reviews 
and permitting processes for major infrastructure projects.
    Under this order, CEQ has worked with the Office of 
Management and Budget and Federal agencies to put in place a 
framework to implement a ``One Federal Decision'' policy. In 
addition, CEQ is currently undertaking other actions, including 
review of its NEPA regulations and guidance, in order to 
enhance and modernize the Federal environmental review and 
authorization process under NEPA and related statutes.
    Mr. Chairman, Ranking Member Carper, and members of the 
committee, thank you again for the opportunity to appear before 
you. I would be happy to answer any questions, and I look 
forward to working with this committee, as well as your 
colleagues in both the Senate and the House, should I have the 
honor of being confirmed.
    [The prepared statement of Ms. Neumayr follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so much for your testimony, Ms. 
Neumayr. We will have some questions in a few moments.
    I would like to turn now to Dr. Fleming. I would invite you 
to introduce your family and then please proceed with your 
testimony.

    STATEMENT OF JOHN C. FLEMING, NOMINATED TO BE ASSISTANT 
 SECRETARY OF COMMERCE FOR ECONOMIC DEVELOPMENT, DEPARTMENT OF 
                            COMMERCE

    Dr. Fleming. Thank you, Mr. Chairman.
    First of all, to my immediate back is my wife, Cindy 
Fleming. We just celebrated our 40th anniversary. We have four 
adult children and three grandchildren.
    To her left is Katie Posey, who is the wife of Congressman 
Posey. To her left is Debbie Meadows, the wife of Congressman 
Meadows. Then we have Elaine Petty who is the wife of Assistant 
Secretary for Water and Science, Tim Petty.
    To my right is Ross Ranson who helped me through the 
process today and behind them is career and political staff 
from the Department of Commerce.
    Senator Barrasso. Welcome all. Thank you.
    Dr. Fleming. Good morning, Chairman Barrasso, Ranking 
Member Carper, and distinguished members of the U.S. Committee 
on Environment and Public Works.
    It is indeed an honor to appear before my former 
congressional colleagues. I thank you for inviting me here 
today. I also would like to thank President Trump, Secretary 
Ross, and Acting Deputy Secretary Kelley, and the career and 
political staff here today, and many others, for their 
assistance and the opportunity to serve as the Assistant 
Secretary for Economic Development in the Department of 
Commerce, if confirmed.
    I am very excited about this opportunity because it allows 
me to use my broad and deep background as an entrepreneur, 
military veteran, physician, and former U.S. Congressman to 
serve again the American people.
    The mission of the Economic Development Administration, 
EDA, is to support the recovery of economies across America, 
including the U.S. territories. This agency helps economically 
distressed communities move past their previously failed 
economic circumstances.
    Even strong economic ecosystems sometimes suffer 
devastation from natural disaster events such as hurricanes, 
floods, and forest fires. I am acutely aware of this as my own 
State of Louisiana, after more than a decade, is still 
recovering from hurricane Katrina. Just drive down a few key 
streets in downtown New Orleans and you will see the ongoing 
regeneration of our infrastructure destroyed by hurricane 
Katrina.
    The EDA helps Americans face economic challenges, and I am 
no stranger to those challenges, having had a few myself. If I 
may, I would like to mention a couple.
    At age 11, growing up in a working-class home and 
influenced by my nurse grandmother, I began to have a dream of 
being a doctor 1 day. My grandmother convinced me that in 
America you can achieve whatever you want with hard work. I 
believed her. However, in the pursuit of my dream, I found 
obstacles.
    My mother became disabled when I was 5, and my father died 
suddenly just before I graduated from high school leaving a 
college education in doubt. Nonetheless, by working part-time 
and with the help of government loan programs, I achieved my 
goal of becoming a physician while caring for a family back 
home.
    It was not an easy pathway. I loved my work in medicine. I 
spent the first 6 years as a U.S. Navy medical officer. Upon 
finishing my military tenure, I set up a private medical 
practice in a small town in Louisiana where my wife and I 
raised four children.
    Along the way, I became interested in another 
quintessential American dream: becoming a small business 
entrepreneur. In partnership with my brother, I began to open 
various retail franchised businesses that grew to over 500 
employed positions that remain in existence even today.
    Again, there were challenges. I had to acquire capital. I 
had to develop management systems. I had to implement 
leadership accountability and many other things required for 
developing a successful suite of businesses. I also experienced 
business reversals just like any business owner.
    I believe my grandmother's sage advice is still true today, 
through hard work, you can achieve whatever you want. It is 
through my own personal experiences that I appreciate the EDA's 
mission to assist distressed communities in overcoming the 
economic challenges they may face.
    It is my belief with my background outlined here today, 
coupled with my strong conviction about the great virtue of our 
American economic model, that I am distinctly qualified to lead 
the EDA in its extremely important mission.
    I intend to help any American who may benefit and qualify 
from our assistance, regardless of their location or 
socioeconomic background. It would be a great honor, should I 
be confirmed, to continue public service by utilizing all that 
I have learned and experienced as a former military officer, a 
physician, an entrepreneur, and a four-term Congressman.
    I will endeavor to assist communities across the Country 
which have suffered economic hardship, helping these 
communities create jobs for millions of Americans. I pledge to 
you to work very closely with Congress with full transparency.
    Thank you, again, for allowing me to appear before you. I 
look forward to answering your questions.
    [The prepared statement of Dr. Fleming follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you both of you. Congratulations to 
both of you.
    Throughout this hearing and with questions for the record, 
the committee members will have an opportunity to learn more 
about your commitment to public service of our great Nation. I 
would ask throughout this hearing that you please respond to 
the questions today and those for the record.
    With that said, I have the following questions to ask that 
we ask all nominees on behalf of the committee. I will ask each 
of you to respond individually.
    Do you agree, if confirmed, to appear before this committee 
or designated members of this committee and other appropriate 
committees of the Congress and provide information subject to 
appropriate and necessary security protections with respect to 
your responsibilities?
    Ms. Neumayr. Yes.
    Dr. Fleming. Yes, Mr. Chairman.
    Senator Barrasso. Do you agree to ensure that testimony, 
briefings, documents in electronic and other forms of 
communication of information are provided to this committee and 
its staff and other appropriate committees in a timely manner?
    Ms. Neumayr. Yes.
    Dr. Fleming. Yes, Mr. Chairman.
    Senator Barrasso. Do you know of any matters which you may 
or may not have disclosed that might place you in any conflict 
of interest if you are confirmed?
    Ms. Neumayr. I am not aware of such matters.
    Dr. Fleming. No, sir.
    Senator Barrasso. Ms. Neumayr, let me start.
    As I mentioned earlier, you have a very impressive career 
in public service and environmental law. You have held 
positions at the Department of Justice, the Department of 
Energy, the House of Representatives and you have also served 
as the CEQ's Chief of Staff since March of last year.
    How has your experience prepared you for the critically 
important job of advising the President on environmental 
policy?
    Ms. Neumayr. Thank you, Mr. Chairman.
    As you said, over the past 15 years, I have had the 
privilege of working in a variety of positions in the Executive 
and Legislative branches on energy and environmental policy 
matters. This has given me an opportunity to work on a very 
broad range of issues with a large number of Federal agencies.
    It has also given me the opportunity, while working as a 
congressional staffer, to see the important role Congress plays 
in conducting oversight and developing legislative proposals. 
It has also given me the opportunity to see how important it is 
to work on a bipartisan basis, when we can, to try to address 
very challenging and difficult issues relating to some of these 
matters.
    I believe, based on this experience, it will help to inform 
me going forward, should I be confirmed. I would look forward, 
should I be confirmed, to working with this body as I carry out 
my duties.
    Senator Barrasso. Thank you.
    Dr. Fleming, one of the things brought up earlier by 
Senator Carper was that during your career in Congress, you 
voted to eliminate the Economic Development Administration. I 
was going to give you an opportunity to help us understand why 
you now want to lead this agency?
    Dr. Fleming. Mr. Chairman and Ranking Member, thank you so 
much for that question.
    When I ran for Congress in 2008 and was elected in 2009, I 
made a campaign promise to go to Washington to cut spending and 
to reduce deficits. In fidelity to that commitment and promise, 
I did what I could to do that.
    There are a lot of things we look at in terms of 
streamlining and hopefully reducing the cost of government and 
taking the burden off taxpayers. However, going forward, I have 
very much become appreciative of the great work that EDA does 
and of its many accomplishments.
    What really attracts me as an entrepreneur myself is the 
ability to leverage private sector dollars to draw in 
entrepreneurs, innovators, to risk their capital on behalf of 
the American people creating jobs, goods and services.
    As I said, the more I learn about EDA, the more impressed I 
am with the work it does. Again, what agency in the Federal 
Government can claim it gets a 15 to 1 leveraging of non-
Federal dollars?
    Thank you.
    Senator Barrasso. I note that the President's Fiscal Year 
budgets for 2018 and 2019 propose eliminating the agency and 
its assistance programs. Yet, in terms of Congress, in Fiscal 
Year 2018, Congress funded the Economic Development 
Administration at $39 million and provided I think about $263 
million for its assistance programs. Congress has appropriated 
an additional $600 million in emergency funding for the 
agency's assistance programs.
    If confirmed, can you share with us your plans for the 
agency?
    Dr. Fleming. Thank you, Mr. Chairman.
    Yes, in fact, the checks are going out the door as we 
speak, ramping up rapidly in the third and fourth quarters. I 
certainly want to make sure that is speedily done but also with 
good stewardship to the taxpayers.
    That is quite a job the EDA has coming forward, as you 
said, $600 million, but it is for a great cause. It is for 
relief. 2017 was a very difficult year. We had hurricanes, 
forest fires and so forth and the help is coming. I certainly 
want to make that as efficient and proficient as possible, 
although the EDA currently is doing a great job as well.
    Senator Barrasso. Ms. Neumayr, CEQ has not updated its 
regulations under NEPA, the National Environmental Policy Act, 
for decades. Last month, CEQ issued ``An advance notice of 
proposed rulemaking'' requesting public comment on potential 
revisions to these regulations.
    Can you explain to us and help us understand what has 
promoted CEQ to update its NEPA regulations and discuss how 
permitting delays and spiraling project costs have led to the 
CEQ's proposal?
    Ms. Neumayr. Yes. Last August, President Trump issued an 
Executive Order which addressed environmental reviews and 
authorization decisions for major infrastructure projects. As 
part of that Executive Order, he directed the CEQ to review its 
regulations and guidance to determine whether there were ways 
to modernize and make the NEPA process more efficient, timely, 
and predictable.
    We went forward with an advanced notice of proposed 
rulemaking to solicit comment on whether there might be 
potential updates or clarifications to the regulations that 
would be appropriate. As you said, they have not been reviewed 
for over 40 years.
    Senator Barrasso. Senator Carper.
    Senator Carper. Ms. Neumayr, I want to ask you a question 
to start off about the philosophy you would bring to CEQ as its 
Chair. Would you say that it would be your primary 
responsibility as the CEQ Chair to help prevent or eliminate 
the damage to our environment? Would you say that is your 
primary responsibility?
    Ms. Neumayr. Yes, I would say to advance environmental 
protection.
    Senator Carper. In your view, what are the most important 
elements of the NEPA process and what changes do you envision 
proposing to the CEQ NEPA regulations?
    Ms. Neumayr. The NEPA process is intended to ensure that 
decisionmakers are informed of potential environmental impacts, 
significant major Federal actions that may affect the quality 
of the environment. The NEPA process is also intended to ensure 
the public has an understanding of the decisionmaking process 
as well and may participate in that process.
    As we discussed, the NEPA regulations were issued in 1978. 
They have been revised only once in one very limited respect. 
We have solicited public comment on whether there are potential 
updates or clarifications that may be appropriate, given the 
passage of time.
    CEQ, over the years, has issued a number of guidance 
documents relating to implementation. Questions relating to the 
implementation of NEPA have also been the subject of extensive 
litigation. We want to see if there are some commonsense 
revisions that may facilitate more efficient implementation of 
NEPA without compromising environmental protection.
    Senator Carper. Thank you.
    I mentioned win-win situations in my opening statement. One 
of them relates to the auto industry and emissions from the 
auto industry from cars, trucks and vans on our roads. A 
primary source of air pollution is our vehicles. It is one we 
have made some progress toward addressing. I think we all agree 
we need to make a whole lot more.
    The President met in the White House about 2 months ago 
with leaders of the auto industry, domestic and some from 
outside the Country. I think EPA was represented by Scott 
Pruitt. I think the Department of Transportation was 
represented its Secretary and Deputy Secretary. Were you at 
that meeting?
    Ms. Neumayr. No, I was not.
    Senator Carper. I heard this from any number of people who 
were there that the auto industry as one said to the President, 
Mr. President, if you want to help us, you will do this and 
support this policy with respect to CAF standards, fuel 
efficiency standards and tailpipe standards.
    You will give us support of policies for some near term 
flexibility in the fuel efficiency standards, near term 
flexibility. In return for that, we will shoot for a higher 
target going forward after 2030.
    The auto industry said to the President, we don't want 
California to be thrown a curve along with ten other States 
that support their position. We want California and these other 
States at the table.
    They said to the President, we want certainty and 
predictability with respect to these standards. We are going to 
be building cars for markets all over the world, not just here 
in the U.S. We do not need to build two versions of the same 
model for the domestic market and frankly, we don't need to do 
the same thing for markets outside of the U.S.
    So far in my conversations with Andrew Wheeler and Bill 
Wherum, they basically said in so many words, we want a 50-
State solution that actually is good for the environment, the 
economy, these companies and it is a win-win.
    Your views, please? You are going to be in a key position 
to try to make something like this happen.
    Ms. Neumayr. As you discussed, this is a matter primarily 
being addressed by EPA and DOT rather than CEQ but as you say, 
there is a rulemaking process underway. We do support one 
national standard. We think that it is important to seek such 
an approach.
    There is an ongoing rulemaking process. As a component of 
the White House or as the Executive Office of the President, 
CEQ is participating in that process. We expect there will be a 
proposal that will be put out for public comment. It will be 
important to receive comment and inform any future actions 
based on that comment.
    Senator Carper. I understand it is likely that proposal 
will not be a 50-State solution. Is it going to be a proposal 
that will invite further litigation, uncertainty, and lack of 
predictability? This industry is an important industry.
    I would just urge, if you are confirmed and I think there 
is chance you will be, you could come right out of the starting 
block. You could, I think, be a force for commonsense and good 
public policy in any number of ways. I hope you will do that.
    My time has expired. May I have a chance to ask one 
followup question? I just want to come back and ask Dr. 
Fleming, again the question asked by our Chairman.
    There is an old saying in Delaware, people may not believe 
what you say but they will believe what you do. Again, two 
times, as I understand it, you voted to defund EDA, the entity 
you have been nominated to lead. The Administration has now 
proposed, I think a couple of times for two fiscal years, to 
defund EDA.
    In a State where EDA actually does some really good work, I 
am sure the same is true in other States, the question I am 
going to be asking you is you have to make people believe if 
you are confirmed with this position, with the Administration 
trying to get rid of this program and you having voted twice to 
defund, I want to make sure it is still going to be around to 
do the good work they are doing.
    My time has expired. We will come back and talk about it.
    Dr. Fleming. Yes, sir.
    Senator Barrasso. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman.
    Thank you to our nominees for being here today. I would 
like to start with you, Ms. Neumayr.
    The renewable fuels standard is critical to America's 
farmers. This has been in the headlines as of late. It is an 
issue that is very important to me, a number of my colleagues 
and, of course, our rural communities.
    In 2016 and 2017, we learned that the EPA, under former 
Administrator Scott Pruitt's leadership, granted 48 small 
refinery hardship exemptions of the 53 petitions that had been 
submitted to the agency.
    These waivers effectively reduced the 2016 and 2017 
renewable volume obligations by a combined 2.25 billion gallons 
of biofuels which has significantly weakened the demand for 
biofuels, has put thousands of our jobs in jeopardy, and truly 
undermined congressional intent of the law.
    Do you believe the RFS should be implemented in a manner 
consistent with the original intent of Congress, and, if 
confirmed, would you support the spirit and the letter of the 
law?
    Ms. Neumayr. Yes, Senator. I know this is a very important 
issue and an issue that has been the topic of discussion among 
senior Administration officials and this body. It is a standard 
that is implemented by the EPA in consultation with USDA and 
the Department of Energy.
    I can commit, if confirmed, I will seek to support its 
implementation consistent with the letter and intent of the 
law.
    Senator Ernst. What role do you believe the Council for 
Environmental Quality should play in the EPA's administration 
of the Clean Air Act, specifically the RFS?
    Ms. Neumayr. This is a statutory program, a program that is 
administered by the EPA, but CEQ, I believe, can play a 
supporting role in seeking to support both EPA and the agencies 
with which it consults as they implement the statute.
    Senator Ernst. We would certainly encourage you to do that. 
If you are confirmed, will you be engaging with the biofuels 
industry, agricultural communities and governing agencies, as 
you stated, on any issues related to the RFS, meaning all 
stakeholders?
    Ms. Neumayr. Yes, I anticipate that we would be. I do think 
it is important that all stakeholders are heard from and that 
we act on full information.
    Senator Ernst. I appreciate that. I think input needs to 
come from all stakeholders in order to make an educated 
decision on these issues.
    As you know, E15 is a federally approved blend of 15 
percent ethanol and 85 percent regular gasoline. Fuel retailers 
across the Country want to offer E15 year round. These 
retailers have invested millions of dollars in infrastructure 
to help make this possible.
    However, we do have an outdated Reid Vapor Pressure 
regulation which is blocking them from offering E15 during the 
summer months, which would be June 1 through September 15. The 
year-round sale of higher ethanol blends like E15 would provide 
benefits not only to farmers but also to consumers and our 
environment.
    Earlier this year, President Trump called the restriction 
``unnecessary and ridiculous.'' He committed to fixing it by 
expanding the RVP waiver to higher ethanol blends. If 
confirmed, will you support the President's stand and 
commitment to E15?
    Ms. Neumayr. As I said earlier, I understand there have 
been discussions between senior officials, including the 
President and members of this body, on aspects of the program, 
including this issue.
    I have not participated in those discussions but, if 
confirmed, I commit that I will seek to support implementation 
of the law consistent with Congress' directives and the 
President's commitments.
    Senator Ernst. Absolutely and I appreciate that the 
President has reaffirmed many times over that he is committed 
to E15 and would like to see that year round. He fully supports 
our farmers and the RFS. We want to make sure we are upholding 
that commitment to the law and to the President as well.
    Thank you very much.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I want to thank both of our nominees for your public 
service and your willingness to continue public service.
    This committee has a reputation of working together in a 
bipartisan way to accomplish both economic development and 
growth through infrastructure and economic development 
programs, and in protecting our environment.
    Sometimes that is difficult in the environment we work in, 
but we look at your two positions as critically important to 
working with us to achieve the objective of a safe and clean 
environment and economic growth in areas that have real 
challenges for economic growth.
    I want to start with the question Senator Carper set out 
because, Dr. Fleming, you and I have had a chance to talk about 
this. I just want to make sure I reiterate this for the record.
    I enjoyed our conversation. Your background is very 
impressive. Your own personal life story is very impressive.
    We talked this week about the challenges in areas such as 
rural America and our urban cities not having the same 
attractions for jobs and economic growth that other communities 
have. In the rural parts of my State, it is challenging to get 
companies to locate there. It is a wonderful community but they 
need to have the attractions so businesses will be able to have 
confidence to come to those communities and that there is a 
future.
    Senator Carper mentioned your voting history in the House 
of Representatives. Congress has been very bipartisan in making 
sure the EDA Program remains and is funded. We would like to 
get on the record your understanding of what you would do, if 
confirmed, to carry out the responsibilities of the EDA 
Program?
    Dr. Fleming. Senator, thank you for that question.
    You are right that in public disclosure of the President's 
budget, I think last year and this year, the plan is to down 
scope EDA, no question about that. The story does not end 
there. A later release of the President's reorganization plan 
actually stands up the Bureau of Economic Growth which actually 
pulls in the authorities and capabilities of EDA and similar 
economic development programs from HUD, Agriculture and other 
things.
    This Administration, like every Administration, is having 
to make difficult decisions about spending. I think the focus 
is on consolidation, realignment and efficiency. I believe if 
you look at that, you will actually see given the proper 
funding, there will be a continuation of, if not all of the 
authorities, but these are two publicly disclosed documents.
    Senator Cardin. I want to try to hone in on two different 
scenarios.
    Dr. Fleming. Yes.
    Senator Cardin. One, Congress rejects that and provides the 
funding for the EDA Program, as we did in this last budget. In 
your position as the Administrator, what would you do?
    Dr. Fleming. My position is to salute, carry out and 
execute on everything that is provided to me as goals and 
commitments. Senator, I had a say in the funding of these 
departments. I no longer have a say. That is really up to you 
and the President.
    Whatever you scope EDA is the level I will act on. I will 
spend the dollars for the American people in the most efficient 
way with stewardship. I will make sure these programs are as 
effective as they can possibly be.
    Senator Cardin. The second part is as every Administration 
tries to reorganize, we get a little bit nervous about that 
because sometimes reorganization means elimination. Will you 
commit to this committee that you will fight for having at 
least the same effective tools to assist underserved 
communities, such as rural America and our urban centers, that 
the EDA currently provides, that you will fight to maintain 
that Federal ability?
    Dr. Fleming. Senator, I really enjoyed our visit the other 
day. As I mentioned to you, I come from a rural area. My 
congressional district is very rural. We have areas that are 
very underserved when it comes to broadband and other things.
    Absolutely, I am committed to that. EDA has a fantastic 
history. As I mentioned before, two to one dollars go to rural 
areas and commitments in that way. I will continue and 
strengthen that commitment.
    Senator Cardin. Thank you.
    Ms. Neumayr, all you have to do is say you will do 
everything for the Chesapeake Bay and you and I are going to 
get along fine.
    Ms. Neumayr. I know the Chesapeake Bay is very important, 
Senator. I know that we have many Federal agencies engaged. I 
look forward to supporting them as they work on restoration 
protection efforts pursuant to the agreement and all of the 
related documents that have been issued and are being 
implemented now.
    Senator Cardin. Fortunately, we get two bites at every one 
round. With Senator Van Hollen here we get two bites today.
    Thank you very much, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, Ms. Neumayr for your testimony.
    I appreciate you meeting with me to discuss your priorities 
to serve on the Council of Environmental Policy. In our 
meeting, we discussed that my constituents want certainty and 
consistency for the entire Federal permitting process.
    As I am sure you have heard many times throughout your 
career, inconsistency and uncertainty lead to frustrations, 
project delays and increased costs that come at the expense of 
hardworking families and taxpayers.
    For example, a street widening project in Omaha that would 
alleviate congestion in a high density area began in 2008. It 
was estimated to initially cost $14.5 million. Due to these 
burdensome Federal regulations and permitting process, this 
project is now going to cost Omaha taxpayers $146 million.
    Ms. Neumayr, taxpayer money is evaporating under the 
current permitting process. I commend the President for the 
actions he has taken to streamline the process, specifically, 
this Administration's commitment to complete all environmental 
reviews and Federal authorizations for important infrastructure 
projects in 2 years.
    Should you be confirmed, what role will the CEQ play to 
advise the President in collaboration with Federal agencies on 
promoting policies that ensure stakeholders have a clear road 
map before the Federal review process while still protecting 
our environment?
    Ms. Neumayr. Thank you, and thank you for the opportunity 
to meet with you last week.
    CEQ's core responsibility really is with respect to 
overseeing the implementation of NEPA across Federal agencies. 
We have been working very closely with agencies already to 
implement the One Federal Decision policy which sets forth the 
goal of an average of 2 years for completion of an 
environmental review, starting with the Notice of Intent and 
completing with the issuance of the Record of Decision.
    CEQ has worked with Federal agencies to develop a 
memorandum of understanding involving all the key agencies, 
setting forth what roles and responsibilities they will play as 
they approach some of these large infrastructure projects.
    In particular, it outlines a process whereby the lead 
agency will develop a single schedule, a joint schedule. The 
agencies will develop a single environmental impact statement 
and a single rod. They will do so in a very coordinated way so 
that we can ensure there is good communication, good planning 
early in the process, and that issues are resolved in a timely 
way, so deadlines are not missed, so we can achieve the 
important goals of protecting the environment; but also having 
an efficient process so stakeholders can act and finance these 
projects and receive decisions in a very timely manner which is 
important from the standpoint of costs and environmental 
protection. Because many of these projects are important for 
protection of the environment.
    Senator Fischer. Exactly. I appreciate that you are 
thinking ahead to that because it is extremely important that 
our States and local stakeholders have a clear set of 
guidelines and a clear understanding of what is expected in 
this permitting process, if we are going to see it be 
streamlined so that we can save taxpayer money.
    An important provision to streamline that infrastructure 
permitting process is the State assumption of NEPA authority 
for projects under the Federal Highway Administration, known as 
NEPA assignment.
    Congress has endorsed this policy twice, first under 
SAFETEA-LU and later under MAP-21. NEPA assignment will speed 
up project permitting while maintaining our environmental 
standards???????
    I was pleased to see earlier this week that the Federal 
Highway Administration has issued that proposed Memorandum of 
Understanding with the Nebraska Department of Transportation. I 
think that is extremely important.
    Do you agree the Federal Highway Administration's NEPA 
assignment authority has improved the permitting process in 
States that have implemented it?
    Ms. Neumayr. Yes. This is an area in which I believe CEQ 
has been involved for a period of time. Yes, we believe it is 
important and something that can help to facilitate timely 
completion of the process.
    Senator Fischer. Do you think it is important to have those 
MOUs be expanded in order to have States have more control and 
input over projects within their borders?
    Ms. Neumayr. Yes, I very much agree that those are valuable 
with respect to these matters.
    Senator Fischer. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Fischer.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Welcome, Ms. Neumayr. I am glad you are here. I have a 
couple of fairly quick questions.
    First, do you understand and appreciate the consequences of 
climate change and carbon pollution on our oceans and coasts, 
including warming, deoxygenation, sea level rise and ocean 
acidification?
    Ms. Neumayr. Yes, I understand these are important issues, 
particularly to coastal communities.
    Senator Whitehouse. Your Ocean Policy Executive Order 
``recognizes and supports Federal participation in regional 
ocean partnerships.'' We have a very robust regional ocean 
partnership in New England. Do you pledge to support its 
continued efforts and provide Federal support for it?
    Ms. Neumayr. Yes, we do.
    Senator Whitehouse. You also have recognized, in that 
Executive Order, the importance of ocean data and monitoring, a 
priority for the bipartisan Senate Oceans Caucus. Will you work 
with Senator Murkowski and me on bipartisan legislation being 
drafted right now within the Oceans Caucus to help make sure we 
provide a strong ocean data monitoring piece of legislation?
    Ms. Neumayr. I am not familiar with that legislation.
    Senator Whitehouse. I am asking you if you will work with 
us?
    Ms. Neumayr. Yes, we will work with you. One of the 
priorities of the Executive Order is to expand access to 
Federal data.
    Senator Whitehouse. Finally, we have, with Senator Sullivan 
leading on the Republican side, with important support from 
Senator Inhofe from a State that does not have a coast, passed 
a very important marine plastic waste legislation.
    I would like to propose to you that there are big wins to 
be had in this area and that it is very bipartisan. The bill 
passed the Senate by unanimous consent. I believe it just 
cleared the House committee in a voice vote.
    There are significant opportunities. CEQ has the chance to 
engage with the trade and outward-looking elements of the 
Administration because a lot of the plastic waste originates in 
foreign countries from terrible waste disposal practices.
    I would ask your interest in helping us work with the 
Administration on those issues abroad.
    Ms. Neumayr. Yes. I think this is an important issue. I 
think this is an issue we would like to work closely with you 
on going forward.
    Senator Whitehouse. For the record, Mr. Chairman, I would 
like to ask unanimous consent to put into the record of these 
proceedings the American Chemistry Council announcement of its 
retaining of Cal Dooley, who we worked very well with 
particularly on the TSCA bill, which over and over and over and 
over and over states the importance to the American Chemistry 
Council of dealing with the plastic waste and plastic debris 
problem and pledges Cal's support. He calls it ``an imperative 
and an issue of personal as well as professional interest.'' I 
think there is a real opportunity for us to do more in this 
space.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Dr. Fleming, in Rhode Island, we have a 
very good working relationship with the regional EDA office 
based in Philadelphia. I would appreciate it if that not be 
disrupted in any particular way. We are happy with the way the 
organization operates and the attention we get, even though we 
are getting it from Philadelphia.
    Do you have any plans to disrupt them?
    Dr. Fleming. Senator, I have absolutely no plans to disrupt 
that or any other district office.
    Senator Whitehouse. A lot of our work with EDA has revolved 
around either disaster recovery, particularly along the coast 
and along flooded riversides and involves some of the 
projections, concerns and things we are already seeing having 
to do with climate change, sea level rise, ocean acidification, 
and all of that.
    When Rhode Island comes before you and bases requests for 
EDA funding on science that is out there projecting sea level 
rise, heightened storm surges, ocean acidification, species 
shifts and other ocean consequences of climate change, how will 
your past record on these issues influence your willingness to 
accept our requests?
    Dr. Fleming. Senator, as we mentioned in our meeting, and 
thank you so much for having me for that meeting, probably no 
State has been more devastated and affected by the coastline 
issues of hurricanes and so forth than Louisiana, my home 
State.
    In fact, Louisiana is losing I believe, I am not absolutely 
certain about this, but something in the area of an acre a day 
of coastline.
    Senator Whitehouse. Yes. Your Governor has declared your 
whole coastline in a State of emergency, I believe.
    Dr. Fleming. Exactly. As we are being affected the most and 
as someone who does come from a science background, not from 
climate science, of course, but from medicine, it is my feeling 
to always follow the science and listen to what the scientists 
tell us.
    Senator Whitehouse. We need not fear that the science 
supporting some of our applications will be deprecated by you 
in the review process?
    Dr. Fleming. Absolutely, Senator. You should not fear that 
at all. We are going to go where the scientists lead us with 
the best of technology and research. We will go that route.
    Senator Whitehouse. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank both of you for being before us and for your 
willingness to serve. It is nice to see you again, Dr. Fleming, 
after having the joy of serving with you on the House side. I 
have deep respect for you. Thank you for your visit.
    I am going to kind of go down the same path as we went 
through in my office. The EDA has been increasing its presence 
in West Virginia. We have our own State director now at my 
insistence when I entered the Senate when I felt West Virginia 
was falling a bit behind.
    I have a list here of the projects EDA has worked with, 
2,100 jobs over the last 3 years but also some of the dollars 
are specific to what is called the power grants which are 
directed at not just communities that have fallen on hard times 
but by virtue of the extremely devastating downturn of the coal 
industry over the last several years.
    What is your feeling on the power grants? I would hope 
these would still be a set aside for the economic devastation 
we still see, to get people retrained and back on their feet. I 
would like a commitment that the power grants, at least with an 
emphasis on those distressed areas in Appalachia, would still 
be a focus of EDA under your stewardship.
    Dr. Fleming. Senator, it was great becoming reacquainted 
with you once again, from the House days.
    Yes, you have my total commitment on that. Again, West 
Virginia, like Louisiana, has got to diversify its economy away 
from the traditional lines of economic support. I am happy to 
support that and other programs that may assist.
    Senator Capito. One of the areas in which I think you and I 
have common ground is the lack of deployment of rural broadband 
where EDA can really be a real jump start in this area working 
with the private sector and some of the State municipalities.
    Again, upon your confirmation, I would like to invite you 
and have one of your first visits be to our State of West 
Virginia to see some of the innovative things we are doing and 
how EDA can help us move forward in that direction.
    Dr. Fleming. I would love to visit your beautiful State. I 
think you are absolutely on point with that. Even in rural 
areas across America, when you have fiber broadband, you can 
set up a factory or any type of company and do worldwide 
interactions economically.
    That is something that brings a lot to the table and I 
think will help renew economies across America and rural areas 
but it is fundamental to have broadband in order to do that.
    Senator Capito. It absolutely is.
    In a repetitive fashion, I expressed my concerns to you 
with the President's budget. I expressed to you concerns of 
your past votes in the House. Is there anything besides a firm 
commitment that you are now going to go in the direction of the 
Congress where the Congress sets the funding level?
    There is passion behind everything. If you are not really 
passionate about something, I would imagine an Administrator 
could find ways to be less helpful. If you could give me an 
affirmative statement here, maybe flesh it out a bit more, I 
would feel better.
    Dr. Fleming. Thank you for the opportunity to do this, 
Senator.
    Again, I come from a private sector background. I am a 
strong believer in the private sector driving the economy. 
Where else, what other agency in the Federal Government 
leverages and attracts capital from the private sector more 
than the Economic Development Administration?
    Again, as I mentioned earlier, we are talking about a 15 to 
1 ratio of return on investment of Federal dollars against non-
Federal dollars. To me, that is totally consistent with my core 
beliefs now and in the past. I am committed to making that even 
more successful in the future.
    Senator Capito. I appreciate that. Thank you.
    Ms. Neumayr, I think you are a fantastic candidate for 
this. The one thing I would say was the Congressman from 
Michigan that introduced you, I don't know about that guy. I 
am, of course, joking about my friend, Fred Upton.
    Let me ask you a question, a basic question. I am putting 
myself in the Chesapeake Bay Caucus as well, because West 
Virginia is very influenced by that as well since we have the 
head waters of the Chesapeake Bay in our State.
    Over the years of my service, it seems that environmental 
regulations or balancing the environment and the economy, 
depending on the philosophy of the President or maybe the 
director, things kind of go up and the answer received is, 
well, it is being considered by CEQ.
    In some cases, it seems like a wasteland of shelving 
certain projects or maybe expediting other projects. How can 
you help me with the affirmative yes-no equation, which I think 
helps for investment, helps for States and local entities to be 
able to plan, rather than just using CEQ in some ways as a 
holding pattern? That is just the way it struck me in the past.
    Ms. Neumayr. CEQ does have a convening role where there are 
issues, particularly involving multiple agencies. CEQ 
frequently plays that role. I think it is an important role. 
However, it is important also that we do reach decisions, make 
determinations and move forward. I think that is a priority for 
this Administration with respect to matters involving the 
implementation of NEPA and other statutes as well.
    Senator Capito. Thank you. I would just say, yes and no, 
people can accept yes or no. It is this maybe la la land that I 
think really harms the ability to move projects or ditch them 
if they are not going to work.
    Ms. Neumayr. It is important to reach a decision.
    Senator Capito. Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman.
    As I have delved into the data, I have been really 
surprised since being a United States Senator over the last 
four-plus years, the compelling data that shows that low income 
communities in America, particularly indigenous communities 
where Native Americans are and communities of color, are much 
more likely to live in seriously challenging environmental 
conditions and hazards.
    I learned this first as a mayor where I was sort of shocked 
to discover how toxic the soil is in the city of Newark from 
years of industrial use. Our Passaic River was stolen by past 
generations who poured industrial wastes into the river, which 
is now a Superfund site.
    I found it was not just Newark. You can go around the 
Country and see there are a thousand jurisdictions where the 
children have higher blood lead levels than Flint, Michigan. I 
have traveled through the South and seen industrial waste from 
pig farming in Duplin County to the highlands of Alabama where 
I was stunned to see the kind of toxic dumping that has gone 
on, people who have been on this land since slavery and it is 
now stolen from them.
    I have seen a place literally called Cancer Alley in 
Louisiana between Baton Rouge and New Orleans, again, a low 
income community, where the particulate matter is so much 
higher. I sat in a painful church gathering where community 
member after community member came up and told me how many 
people had died in their families due to cancer because of all 
the chemical companies aligned there.
    What you are up for confirmation for, in many ways, has got 
to be to protect the most vulnerable communities where cancer 
rates, respiratory diseases, lead poisoning is really targeting 
communities that are often the most vulnerable.
    CEQ plays a pivotal role in this and having someone with 
compassion, empathy and an understanding of the urgency is key. 
Recognizing the importance of the procedures under NEPA for 
identifying and addressing environmental justice concerns, 
President Clinton's CEQ issued Guidance 97 entitled The 
Environmental Justice Guidance Under the Environmental Policy 
Act, which it seems you are aware of.
    To me, it is so critical, so unfair. You know this. You 
don't even need to have lead poisoning; if you have elevated 
blood lead levels, it addles the brain and undermines the 
executive function. It could lead to more criminal activity in 
so many of these communities. This is just some of the heavy 
metals that are present.
    I guess what I am looking for today is some solace and a 
commitment that you are going to keep this environmental 
justice, not just guidance, but really urgency, to see what I 
have seen around this Country just by dealing with this issue.
    Will you commit to take no action that really undermines 
implementation of such guidance?
    Ms. Neumayr. Yes, Senator. CEQ did issue guidance in 1997 
pursuant to the Executive Order. CEQ continues to participate 
in an interagency working group that is lead by EPA that 
addresses implementation of the 1994 Executive Order.
    I do believe all people, including those in low income and 
minority communities, should live in a safe and healthy 
environment. My commitment would be to make addressing 
environmental concerns in those communities a priority.
    Senator Booker. I am really grateful. I am hoping that my 
office and yours can work together because the things I have 
seen, now traveling around the Country, have just been simply 
stunning to me and the sense that there is no one fighting for 
them, no one looking out for them as their families suffer not 
only economic losses, again, common stolen from them, but also 
struggle with the health impact it is having on folks and the 
disadvantages they have for children and elderly in particular.
    The second thing I want to cover with you as quickly as I 
can in the minute I have left is the Gateway Project in my 
region. I am a mayor who seared away economic, seared away in 
many ways partisanship for me. For me it has always been fix 
stuff, get stuff done, get out of the way of the private sector 
that the gentleman was talking about. I was all for how do you 
create economic growth. But just a balance sheet analysis, a 
dollar invested in infrastructure in the United States produces 
about two dollars.
    In the greater New York metropolitan region, I am sorry, 
Senator, but I like to call it the greater Newark Metropolitan 
region, a dollar invested in infrastructure in our region 
produces three to four dollars in private sector economic 
development.
    I had such struggles when I was Mayor in my development 
efforts with our State environmental agencies, bureaucracy, and 
red tape. I was really pleased that we got a commitment from 
the Department of Transportation and others that they would 
complete the environmental impact statement rapidly. One of the 
key things stopping us from getting this done is a report from 
government bureaucracy.
    For me, searing away partisanship, I was thrilled to hear 
that the Trump Administration wanted to cut red tape, wanted to 
get projects done, but I have been sort of frustrated that we 
are not getting responsiveness from the Administration to some 
of the things necessary to create that economic development 
growth in the Newark metropolitan region and that small city of 
New York that sits in our shadow.
    The program submitted the EIS report in February 2018 in 
what was poised to be a remarkable example of NEPA working at 
its best, including stakeholders' perspectives and ensuring 
project moves, to me seemed to be, and I do not mean to be 
cynical, a political maneuver now. That EIS has still not 
finalized this report, blowing well past the 24 month goal 
which is costing taxpayers millions and millions of dollars 
because of this bureaucratic sclerotic moment and threatening 
safety.
    You said one of your key tasks at CEQ will be to ensure 
``more timely and efficient environmental reviews for major 
infrastructure projects.'' In your opinion, help me out here. 
Dispel my cynicism.
    Is the treatment of the Hudson River Tunnel EIS consistent 
with the Administration's goal of reducing review times? Will 
you keep my staff abreast of driving this forward so we can 
show people the Administration's rhetoric lines up with their 
actions?
    Ms. Neumayr. I, myself, have not been personally engaged on 
that matter but I can commit that I will work with you and your 
staff. As we have said, it is very important that we complete 
these reviews in a timely manner.
    Senator Booker. Thank you very much.
    I apologize to the Chairman and my colleagues for going 
over my time. Thank you.
    Senator Barrasso. Thank you, Senator Booker.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Welcome to both of you.
    First, I do want to associate myself with Senator Booker's 
remarks regarding the disproportionate impact and fallout of 
pollution and negative health events on low income communities. 
I look forward to working with him.
    Senator Cardin raised the issue of the Chesapeake Bay, Ms. 
Neumayr. One of the big issues in the Bay, of course, is 
climate change. We have rising sea levels and a number of 
islands in the Bay are projected to disappear in the coming 
years.
    If you talk to the superintendent of the Naval Academy in 
Annapolis, he already talks about the negative impact of flash 
flooding on their operations there in Annapolis.
    The first question is a very straight forward question 
which is, do you believe in the scientific consensus that 
climate change is real and that its primary driver is human-
based generation of carbon emissions?
    Ms. Neumayr. I agree that the climate is changing and that 
human activity has a role.
    Senator Van Hollen. One of the things the courts have found 
is that as part of NEPA reviews, we should consider the impact 
of carbon emissions and climate change. The Center for 
Biological Diversity v. The National Highway Traffic Safety 
Administration court case in 2008 determined ``The impact of 
greenhouse gas emissions on climate change is precisely the 
kind of cumulative impacts analysis that NEPA requires agencies 
to conduct.''
    My question is this. Last spring, President Trump revoked 
CEQ's guidance to agencies on how to incorporate climate change 
into Federal environmental reviews. Yet, you have court 
decisions saying this is going to be an important element they 
are going to look at.
    My question to you is how has the withdrawal of that 
guidance impacted NEPA reviews, given the uncertainty now in 
the courts?
    Ms. Neumayr. As you said, last spring, the President issued 
an Executive Order which directed CEQ to withdraw the climate 
guidance that had been issued in August 2016. CEQ did withdraw 
that guidance for further consideration and we have not made 
any decisions with regard to further action.
    However, as I mentioned earlier, CEQ has issued an Advance 
Notice of Proposed Rulemaking inviting comment on whether there 
are potential updates or clarifications to our regulations. I 
expect we will receive comment on issues related to greenhouse 
gases, climate change and their consideration in the NEPA 
analysis.
    Senator Van Hollen. I guess my question is this. Do you 
agree if that is not considered as part of the NEPA review 
process and guidance pursuant to the President's decision to 
eliminate that, that will make any NEPA analysis more 
vulnerable to attacks in the court?
    Ms. Neumayr. Under NEPA, agencies are required to review 
the potential environmental consequences of major Federal 
actions that may significantly affect the quality of the 
environment.
    In that process, agencies have discretion as to the effects 
they will consider and the degree or how they consider those 
effects. That is the general direction under NEPA. Under the 
NEPA framework, agencies have discretion with respect to 
different projects.
    Senator Van Hollen. I am just trying to interpret what you 
are saying more clearly. Are you saying agencies will still 
have the capacity to take into account the impact of climate 
change when their do their own NEPA analysis?
    Ms. Neumayr. Agencies should use their experience and 
expertise as they conduct these analyses and identify the 
effects.
    Senator Van Hollen. Dr. Fleming, it is good to see you. It 
was good to serve with you in the House.
    When we met, I told you EDA plays a really important 
economic development role in the State of Maryland. I told you 
I was going to ask you this question. Not only did the Trump 
Administration zero this out, but I also serve on the 
Appropriations Committee and we asked Secretary Ross about the 
budget which proposes to eliminate EDA. His response has been 
it is a good organization but this is the budget I have been 
handed.
    You, as a House member, voted at least twice for budgets 
that would eliminate funding for the EDA. My question is, how 
can you be a strong leader for an administration that you voted 
to eliminate?
    Dr. Fleming. Thank you for that question, Senator. Again, 
it was a pleasure seeing you once again and meeting with you 
after our days in the House together.
    As I mentioned earlier, I was elected in 2008 to be a good 
steward of our budget, to try to reduce Federal spending. I did 
what I could in order to do that.
    Going forward, I have developed a great appreciation for 
the work EDA does. In fact, more than any agency, it is 
consistent with, I guess, my values, that what agency in the 
Federal Government attracts private and non-Federal dollars 
anymore than EDA for the creation of jobs, goods and services?
    The downsizing of the budget is not the end of the story 
here because a later document released by the White House 
actually stands up the Bureau of Economic Growth which takes in 
all the functions of EDA and other economic development 
functions from HUD as well as Agriculture and others.
    I think what the document suggests is a streamlining and 
efficiency that is so important and necessary in government, 
which I support as someone who wants to keep a careful eye on 
our budget.
    I commit this to you. At the end of the day, it is up to 
you, as a Senator, the Senate and the House, working with the 
White House, to right size government, particularly EDA. I will 
faithfully execute whatever level of funding and authorities 
you provide.
    Senator Van Hollen. I appreciate that. I think you made a 
very good case in your testimony today for the benefit to 
taxpayers of investment in EDA. The issue, as I said, is having 
voted to eliminate it, how can you be a strong leader but I 
look forward to continuing our conversation.
    Dr. Fleming. Thank you.
    Senator Barrasso. Thank you, Senator Van Hollen.
    I would like to invite Senator Markey to engage in 
questioning at this time.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ms. Neumayr, President Trump has conducted a full blown 
assault on facts throughout his Administration but he has been 
most erratic when it comes to questions of science and 
environmental protection.
    Since the Council on Environmental Quality coordinates the 
National Environmental Policy Act, the environmental review 
process, I would like to get some clarification from you on 
some basic statistics.
    Across all agencies, what is the average length of time it 
takes to complete an environmental impact statement?
    Ms. Neumayr. Senator, we have been analyzing environmental 
impact statements going back to 2010. The average time across 
all agencies is approximately four and a half years from the 
time of notice of intent to preparing an environmental impact 
statement to the issuance of a record of decision.
    This does not include the time that may have been taken to 
prepare the application.
    Senator Markey. It is approximately 4.6 years. That is the 
average, so you are correct.
    In a press conference last year, President Trump said he 
has heard ``many, many stories where it takes 20 to 25 years 
just to get approvals to start construction of a fairly routine 
highway.'' This is Donald Trump still speaking, ``and that one 
agency alone can stall a project for many, many years, even 
decades.''
    Is that example, a 20 to 25 year-long review, reflective of 
the average time it takes to finish an environmental impact 
statement?
    Ms. Neumayr. Well, as I said, the average time is four and 
a half years, but, within that, it can span a decade or more. 
There are some that have exceeded 20 years, I believe.
    Senator Markey. Right, but the average is 4.6 years?
    Ms. Neumayr. For transportation projects, it may be higher 
than that.
    Senator Markey. I think at the end of the day, the 4.6 
years is the average. We know it is a little bit over or a 
little bit under, but it is not 20 to 25 years. The President 
just uses that as a way of stigmatizing the efforts to have 
real environmental reviews working within a historical 
framework.
    From my perspective, I just think our policy should be 
based upon expertise and not upon exaggeration. I am afraid 
increasingly that is where the President is taking our debate.
    What percentage of projects at the Department of Energy 
required an environmental impact statement or environmental 
assessment since 2010? Do you know?
    Ms. Neumayr. I do not have that information. I could 
followup.
    Senator Markey. The answer is about 2 percent, 2 percent 
according to a review conducted by the CEQ staff of 2010 to 
2016 data, 2 percent. That seems to be the trend across Federal 
agencies.
    According to the Federal Highway Administration, around 90 
percent of their projects do not have to go through any review 
at all. Ninety percent of the transportation projects do not 
have to go through any review at all.
    Here is another fact. The National Environmental Policy Act 
is the Magna Carta of environmental policy. Despite NEPA's 
importance and the long record that shows how important this 
law is, President Trump just continues to insist on telling 
exaggerated stories about NEPA.
    He might as well be describing an imaginary decades of 
delay on the construction of the Yellow Brick Road. There was 
no environmental impact statement for that and there is no 
environmental impact statement for 90 percent of the projects 
in our Country.
    I am deeply concerned that at the same time as President 
Trump is making these exaggerated statements that CEQ has begun 
the process of rewriting nearly every aspect of the National 
Environmental Protection Act regulations for the first time in 
decades. We cannot live in a land of make believe while making 
new rules. We need a CEQ Chair who can see through the fiction 
to get to the facts.
    The National Environmental Policy Act provides the 
framework by which the public can speak out against projects 
that could harm public health and environment. Ms. Neumayr, 
will you commit to performing public outreach so that 
communities on the ground know how and when they can use NEPA 
to make themselves and their concerns heard by the government?
    Ms. Neumayr. Yes, we think public engagement is very 
important. I would say since I arrived at CEQ, one of the 
things we have done to improve public engagement and to ensure 
it is to move our system to the regulations.gov system so that 
as we solicit public comment on things like the Advance Notice 
that we issued, those public comments will be available and 
accessible to the public as well as all of CEQ's prior actions 
as well, regulatory actions that have been published in the 
Federal Register.
    Senator Markey. You can do two things. One is to update the 
Citizens Guide to the National Environmental Policy Act which 
explains how everyone can use NEPA to have their voices heard 
and participate in environmental reviews which have not been 
touched in over a decade.
    Second is to meaningfully include the public in the CEQ's 
current push to rewrite the implementing regulations for NEPA 
which could completely alter this landmark environmental law.
    Ms. Neumayr, would you commit to holding at least one 
public field hearing per EPA region on this rulemaking so that 
the public can be involved in the rewrite of this fundamental, 
constitutional Magna Carta environmental law?
    Ms. Neumayr. We have issued an Advance Notice of Proposed 
Rulemaking. It is not a regulatory proposal. We have not made 
the decision to move forward with a proposed rule but should we 
make that decision, I will commit that we will consider all of 
our options with respect to public engagement.
    Senator Markey. You will have a hearing in all of the 
regions of the EPA?
    Ms. Neumayr. We will consider all of our options. We think 
public engagement is very important.
    Senator Markey. It is a huge moment, honestly, as you 
consider the rewrite. I just urge you to have this process 
happen in the sunlight and not in the shadow of President 
Trump's tall tales about NEPA. That is going to be your 
challenge. We will be putting more pressure on you as each day 
goes by to make sure the public hears what is going on. I wish 
you would make a firmer commitment in terms of public input.
    Senator Barrasso. Thank you, Senator Markey.
    Before turning to Senator Carper, I want to submit for the 
record an article from the E&E News entitled, Even Some Greens 
Like Trump's Pick for CEQ. The article explains that ``Ms. 
Neumayr is known for preparation, possession of a sharp legal 
mind and establishing balance. This has earned her praise 
across the political spectrum.''
    The article goes on to quote John Walke, Director of the 
Federal Clean Air, Climate and Energy Program at the Natural 
Resources Defense Council, the NRDC. He says, Ms. Neumayr, ``is 
a good selection for the Administration to oversee CEQ.'' Mr. 
Walke goes on to say, ``I think she will do her job well.''
    I ask unanimous consent to enter this in the record. 
Without objection, it is submitted.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    Are your nieces still here?
    Senator Barrasso. Yes, they are.
    Senator Carper. Is one still here?
    Ms. Neumayr. They are both here.
    Senator Carper. Ladies, how is it going? Good. Is she doing 
OK? All right, fair enough.
    I could only say I would never have brought my sons or my 
nephews to a hearing like this. It is rather extraordinary that 
they are still here and hanging in. We applaud them.
    Senator Markey raises an important issue for all of us. I 
hope you will take to heart what he said because he is not just 
speaking for himself.
    A couple of our colleagues, Senators Whitehouse and Van 
Hollen, talked a bit about resiliency with respect to climate 
change reality. I am glad to hear that you acknowledge that it 
is real and that, we, as human beings, have a fair amount to do 
with it.
    Making our communities more resilient to the new climate 
reality can save lives and can save billions of dollars. It can 
be a real win-win. President Obama agreed which is why he 
implemented policies that increased U.S. climate preparedness 
and resiliency.
    President Trump has revoked or weakened those efforts. I 
have called on the President to change course in that regard.
    Let me ask what is CEQ doing today to help our communities 
become more resilient? You have had a year or so, actually more 
than a year. What is CEQ doing today, what have you been doing 
in the last couple months or last year to help make our 
communities more resilient?
    Ms. Neumayr. We have been working with the Federal 
agencies, as I described earlier, to help develop and put in 
place an approach for important infrastructure projects that 
will help to provide a more efficient and coordinated process 
for the Federal Government in making decisions.
    These projects include not just transportation projects, 
modernization projects, energy projects or other projects, but 
also include environmental restoration projects and 
environmentally beneficial projects.
    We have been working to put in place a more efficient and 
coordinated approach for the Federal agencies going forward so 
that we will be able to move forward with new, modern and 
resilient infrastructure and that we will be able to reach 
permitting decisions in a timely fashion.
    We think the development of strong and resilient 
infrastructure is very important and is a priority.
    Senator Carper. Thank you.
    Mr. Chairman, I have one more question. Before I do, I want 
to ask unanimous consent to clarify for the record. This is in 
response to your answer to Senator Markey about transportation 
review times.
    I want to ask unanimous consent to clarify for the record 
information from the Federal Highway website of estimated time 
required to complete the NEPA process. It indicates the median 
time to complete a highway environmental impact statement is 
3.6 years, which is actually lower than the Federal agency-wide 
average. I would ask unanimous consent to submit that.
    Senator Barrasso. Without objection.
    Senator Carper. I just showed the Chairman a quote that I 
could not remember who said it but I thought it was a quote 
that was relevant for our hearing today. The quote is from a 
former leader at Notre Dame, a fellow named James Frick. He 
said, ``Don't tell me where your priorities are; show me where 
you spend your money and I'll tell you what your priorities 
are.'' I think that is pretty good.
    We have come back again and again and again to funding for 
EDA. I asked my staff during this hearing, Dr. Fleming, to go 
back and look at this current Administration's budget proposals 
for some of these regional commissions focused on economic 
growth and development.
    There is one called Denali for Alaska, one called Delta you 
are familiar with, there is another for our northern borders, 
and CDBG as well and EDA. Those are five of the entities that 
would be under the Administration's reorganization plan that 
would help create what I think is called the Bureau of Economic 
Growth.
    Dr. Fleming. Yes.
    Senator Carper. Here is an interesting thing. While the 
Administration has proposed to combine these five entities into 
this new Bureau of Economic Growth, for Denali last year or 
this year, zero funding; for Delta, zero funding both years; 
for northern borders, zero funding for both years; for CDBG, 
zero funding for both years; for EDA, zero funding for both 
years. That is why we are so concerned.
    It is all well and good to move the deck chairs around but 
at the end of the day, if we don't have any money, we cannot do 
much with it. That is why we are concerned.
    Dr. Fleming. Yes, sir.
    Senator Carper. It is important that, if you believe in 
your heart, as you testified here today, that you not just hide 
your candle under a bushel but that you are vocal and strong in 
supporting this.
    The last thing I would say to the spouses who have joined 
your wife here today, it is nice to see all of you. Debbie, 
thank you for sharing your husband with us most days. Give him 
my best.
    I would say to your wife, I could just barely see her lips 
move when you spoke. We are just about done.
    Thanks, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Carper.
    If there are no more questions for today, members may 
submit followup questions for the record by noon on Monday, 
July 23. The nominees should respond to those questions by 5 
p.m. on Friday, July 27.
    I want to thank both nominees and congratulate you on your 
nominations by President Trump.
    This hearing is adjourned.
    [Whereupon, at 11:44 a.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
